Appellate Case: 19-1444

Document: 010110379592

Date Filed: 07/21/2020

UNITED STATES COURT OF APPEALS

Page: 1
FILED
United States Court of Appeal
Tenth Circuit

FOR THE TENTH CIRCUIT

July 21, 2020
Christopher M. Wolpert
Clerk of Court

H. DENISE STUART,
Plaintiff - Appellant,
v.
ERICKSON LIVING MANAGEMENT;
WIND CREST,

No. 19-1444
(D.C.No. 1:18-CV-01083 -PAB-NYM)
(D. Colo.)

Defendants - Appellees.

ORDER AND JUDGMENT*
Before BRISCOE, MATHESON, and CARSON, Circuit Judges.

H. Denise Stuart appeals from the district court’s order granting summary
judgment in favor of Defendants Erickson Living Management and Wind Crest on
her claim of racial discrimination under Title VII of the Civil Rights Act of 1964,
42 U.S.C. § 2000e-2(a)(l). Exercising jurisdiction under 28 U.S.C. § 1291 , we
affirm.

After examining the briefs and appellate record, this panel has determined
unanimously that oral argument would not materially assist in the determination of .
this appeal. See Fed. R. App. P. 34(a)(2); 10th Cir. R. 34.1(G). The case is therefore
ordered submitted without oral argument. This order and judgment is not binding
precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with
Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 19-1444

Document: 010110379592

Date Filed: 07/21/2020

Page: 2

BACKGROUND
In December 2016, Defendants hired Ms. Stuart as a Care Associate for
patients suffering from dementia and Alzheimer’s Disease at the Wind Crest facility
in Highlands Ranch, Colorado. Her co-workers soon began complaining that she was
bossy toward them, unreceptive to feedback, and rude toward residents and their
family members. In March 2017, she received a written warning for failing to adhere
to Defendants’ values of respect, caring, teamwork, and excellence. When Ms. Stuart
and a co-worker were involved in a verbal altercation two months later, Adam
Dickson, Director of Continuing Care, decided to conduct a performance review “by
interviewing both her co-workers and the family members of those residents for
whom she cared.” R. Vol. 1 at 212 (internal quotation marks omitted).
During his evaluation, Mr. Dickson received complaints from a resident’s
family members regarding Ms. Stuart’s demeanor and care for residents, as well as
complaints from co-workers that she ate food designated for residents and used
inappropriate physical force on a resident. Mr. Dickson suspended Ms. Stuart while
continuing to investigate. After receiving additional complaints that she refused to
assist co-workers in times of need and was disrespectful to residents and co-workers,
Mr. Dickson concluded Ms. Stuart’s conduct violated Defendants’ policies and
standards of conduct and terminated her in June 2017.
Believing Defendants discriminated against her because she is Black,
Ms. Stuart filed a discrimination charge with the Equal Employment Opportunity
Commission, which dismissed the charge and issued a right-to-sue letter. She then
2

Appellate Case: 19-1444

Document: 010110379592

Date Filed: 07/21/2020

Page: 3

filed this action pro se, claiming racial discrimination and retaliation in violation of
Title VII. Defendants moved to dismiss the retaliation claim, and a magistrate judge
recommended granting the motion. Ms. Stuart did not file objections, and the district
court accepted the recommendation.1 Defendants then moved for summary judgment
on the discrimination claim. Ms. Stuart did not file a response but, instead, filed her
own summary-judgment motion. The magistrate judge recommended granting
Defendants’ motion and denying Ms. Stuart’s motion. The district court accepted the
recommendation over Ms. Stuart’s objections. Ms. Stuart timely appealed.2
DISCUSSION
“We review the district court’s summary-judgment order de novo, applying the
same standard that the district court is to apply.” Doe v. Univ. of Denver, 952 F.3d
1182, 1189 (10th Cir. 2020) (internal quotation marks omitted). A “court shall grant
summaiy judgment if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). “[W]e examine the record and all reasonable inferences that might be
drawn from it in the light most favorable to the nonmoving party.” Fields v. City of
Tulsa, 753 F.3d 1000, 1009 (10th Cir. 2014) (internal quotation marks omitted). A
party opposing summary judgment, however, may not rely on “[unsubstantiated

1 Although the court allowed Ms. Stuart twenty-one days to amend her
complaint and properly plead the retaliation claim, she did not amend her complaint
or otherwise attempt to resurrect this claim.
2 We confine our review to the discrimination claim, as Ms. Stuart designated
only the summary-judgment order in her notice of appeal.
3

Appellate Case: 19-1444

Document: 010110379592

Date Filed: 07/21/2020

Page: 4

allegations” or “mere speculation, conjecture, or surmise.” Selfv. Crum, 439 F.3d
1227, 1230 (10th Cir. 2006) (internal quotation marks omitted).
Ms. Stuart is pro se, and therefore, “we liberally construe [her] filings.” James
v. Wadas, 724 F.3d 1312, 1315 (10th Cir. 2013). But “we will not act as [her]
advocate.” Id. “Our rules of appeal require appellants to sufficiently raise all issues
and arguments on which they desire appellate review in their opening brief.” Clark
v. Colbert, 895 F.3d 1258, 1265 (10th Cir. 2018) (brackets and internal quotation

marks omitted). “[P]ro se parties [must] follow the same rules of procedure,”
including filing a brief containing “more than a generalized assertion of error, with
citations to supporting authority.” Garrett v. Selby Connor Maddux & Janer,
425 F.3d 836, 840-41 (10th Cir. 2005) (internal quotation marks omitted). “When a
pro se litigant fails to comply with that rule, we cannot fill the void by crafting
arguments and performing the necessary legal research.” Id. at 841 (brackets and
internal quotation marks omitted).
In her opening brief, Ms. Stuart makes the conclusory assertions, unsupported
by citation to the record or legal authority, that she “was falsely accused of elder
abuse,” assaulted by a co-worker, subjected to disparate treatment and harassment,
“compelled to work in a[] hostile environment,” and wrongfully terminated. Aplt.
Opening Br. at 2. She further states, without explanation, that the district court
“failed to notice important facts” and that the “judgement was unfair, unethical, and
unconcern (sic).” Id. at 4. She also references three exhibits attached to her brief,
which consist of two emails she sent to her supervisors regarding incidents with
4

Appellate Case: 19-1444

Document: 010110379592

Date Filed: 07/21/2020

Page: 5

co-workers as well a witness statement regarding the verbal altercation that prompted
the investigation into her conduct and job performance. We “will not consider such
issues adverted to in a perfunctory manner, unaccompanied by some effort at
developed argumentation.” United States v. Wooten, 377 F.3d 1134, 1145 (10th Cir.
2004) (internal quotation marks omitted).
In her reply brief, which largely mirrors her summary judgment motion,
Ms. Stuart contends that the proffered reason for her termination—poor
performance

was false, that Defendants failed to properly investigate the

accusations against her, and that five non-Black employees were not disciplined for
violating Defendants’ policies. By failing to make these arguments in her opening
brief and raising them only in her reply brief, Ms. Stuart has waived these arguments.
See Anderson v. U.S. Dep’t ofLabor, 422 F.3d 1155, 1174 (10th Cir. 2005).
In any event, the district court thoroughly addressed these claims as part of its
analysis under the burden-shifting framework of McDonnell Douglas Corp. v. Green,
411 U.S. 792, 802-05 (1973). See generally Crowe v. ADTSec. Servs., Inc., 649 F.3d
1189, 1195 (10th Cir. 2011) (noting that “the plaintiff must first establish a prima
facie case of discrimination,” that the burden shifts to the employer to show a “a
legitimate, non-discriminatory” reason for the adverse action, and that the burden
shifts back to “the plaintiff [to] show that the defendant’s proffered rationale is
pretextual”). After assuming Ms. Stuart established a prima facie case of
discrimination, the court concluded she failed to show Defendants’ legitimate , nondiscriminatory reason for her termination—a pattern of poor performance, as shown
5

Appellate Case: 19-1444

Document: 010110379592

Date Filed: 07/21/2020

Page: 6

by complaints from both co-workers and relatives of Wind Crest’s residents—was m
any way pretextual. The court specifically found she offered no competent evidence
to rebut the evidence of poor performance or to support her allegation of an
inadequate investigation. Moreover, the court found that the conduct of five nonBlack employees she referenced was not sufficiently similar in severity or frequency
to show disparate treatment. Finally, the court found “Defendants d|d discipline
and/or terminate employees of varied race (e.g., Caucasian or Hispanic) for conduct
like Ms. Stuart’s.” R. Vol. 1 at 222.
Ms. Stuart has not contested the district court’s findings or analysis, and “we
will not question the reasoning of a district court unless an appellant actually argues
against it,” Clark, 895 F.3d at 1265 (brackets and internal quotation marks omitted).
Accordingly, she has failed to show the court erred in granting Defendants’ motion
for summary judgment and denying her cross-motion for summary judgment.
CONCLUSION
The district court’s judgment is affirmed. We deny Ms. Stuart’s motion for
leave to proceed in forma pauperis due to the lack “of a reasoned, nonffivolous
argument on the law and facts.” Rolland v. Primesource Staffing, L.L.C., 497 F.3d
1077, 1079 (10th Cir. 2007).
Entered for the Court

Mary Beck Briscoe
Circuit Judge

6

’ Case l:18-cv-01083-PAB-NYW Document 84 Filed 11/20/19 USDC Colorado
Appellate Case: 19-1444

Document: 010110281719

Page 1 of 2

Date Filed: 12/30/2019

INHIBIT A
I—

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLORADO
Chief Judge Philip A. Brimmer
Civil Action No. 18-cv-01083-PAB-NYW
H. DENISE STUART,
Plaintiff,
v.
ERICKSON LIVING MANAGEMENT and
WIND CREST,
Defendants.

ORDER DENYING LEAVE TO PROCEED IN FORMA PAUPERIS ON APPEAL

Plaintiff H. Denise Stuart has filed a Notice of Appeal [Docket No. 80] and a
Motion and Affidavit for Leave to Proceed on Appeal Pursuant to 28 U.S.C. § 1915 and
Fed. R. App. P. 24 [Docket No. 81]. The Court has examined the file and has
determined that leave to proceed in forma pauperis on appeal must be denied.
Pursuant to 28 U.S.C. § 1915(a)(3) and Rule 24(a)(3)(A) of the Federal Rules of
Appellate Procedure, and for the reasons set forth in the Order [Docket No. 76], the
Court finds that this appeal is not taken in good faith because plaintiff has not shown the
existence of a reasoned, nonfrivoious argument on the law and facts in support of the
issues raised on appeal.
Accordingly, it is
ORDERED that the Motion and Affidavit for Leave to Proceed on Appeal
Pursuant to 28 U.S.C. § 1915 and Fed. R. App. P. 24 [Docket No. 81] is DENIED.

*

*■-.4

IeeMIBMWI

Brain Injury Occurrence Report for;

CONTINUING CARE AT WIND CREST

WffSjfliai ASSISTED LIVING RESIDENCE - ALR ONLY
tuesday, March 07,2017 5:46 PM

Occurrence type: Brain Injury
Occurrence ID: 1723A843004
Occurrence date: 03/01/2017
Occurrence Time:23:05
Occurrence first known date:03/02/2017
Reported by:Adam Dickson
Reporter phone:303-876-8347
Report first received date:03/02/2017 15:47
The following elements required for this to be a reportable occurrence of Brain Injury were met:
Result of occurrence(event)
Change in level of consciousness and/or loss of bodily function OR Diagnostic test which shows brain
injury
Initial Occurrence Report:
On 3/1/2017 @ 11:05pm, resident #382815 had an un-witnessed fall in a common area sunroom on the
memory care neighborhood. Resident is not oriented to person, place or time.
Resident was found by 2 caregivers during walking rounds. Resident found conscious on the floor; EMT's
and on call nursing called immediately. Resident immediately sent to LAH via ambulance. Wife of
resident also called by staff to alert of the fall and hospital transfer.
Hospital report received on 3/2/17 show a type 3 fracture of the dens with 10mm displacement resulting
in moderate canal stenosis without frank cord suppression. Also a tiny subarachnoid hemorrhage was
found.
Hospital reports no change in mental status post fall. Being treated in ICU tonight, continue with Keppra,
follow up CT of head in AM, Neurosurgeon to see tomorrow regarding dens fracture. Resident is able to
move all extremities to noxious stimuli.
We will monitor this case and follow up accordingly.

Client Information

(1) Client ID: #382815
.

ERICKSON000155

r

*(2) Gender: Male
(3) Age: 81
(4) Physical/cognitive status of client before the occurrence: Resident had dx of: UNSPECIFIED
DEMENTIA WITH BEHAVIORAL DISTURBANCE. He is not alert to person, place, or time. Resident
ambulates independently. Resident requires stand by to hands on assistance for toileting, bathing,
grooming and dressing.

Description of Occurrence
(1) What occurred? Describe the alleged event: On 3/1/2017 @ 11:05pm, resident #382815 had an
un-witnessed fall in a common area sunroom on the memory care neighborhood.
Resident was found by two caregivers (CNAs) during walking rounds. Resident found conscious on the
floor; EMT's and on-call RN called immediately. Resident immediately sent to Littleton Adventist Hospital
via ambulance.
(2) Describe the injury: Resident found to have one (1) inch laceration to forehead, small skin tear on
right elbow, and two small abrasions on right hand. CT scan at hospital revealed small hemorrhage in left
parietal region- SAH or cortical.
Resident also diagnosed with Type 3 dens fracture w/ 10mm displacement and moderate canal stenosis.
There were also fractures of the bilateral lateral aspects of the posterior arch of C1 which was not
displaced.

(3) Describe the functional loss: Fall resulting in fracture and brain injury and subsequent death at
hospital two days later.
(4) Is the loss permanent or temporary? Explain: Permanent. Resident passed away in hospital.
(5) Was the occurrence witnessed? If yes, by whom? NO

(6) Who reported the occurrence? Caregivers (CNAs) working in the Memory Care Neighborhood
contacted RN Manager on-call, resident POA, and EMTs.
(7) If reported by a staff member was it reported timely? YES,reported timely by staff

Facility Action
(1) Was the client assessed? If yes, by whom and when: YES
EMTs assessed resident upon arrival to building (called by CNAs).
(2) Was treatment provided to the client? If yes, describe the treatment, who provided it, and
when it was provided: YES
EMTs completed assessment of resident. EMTs noticed resident grimacing during palpation of C-spine.
EMTs and CNAs safely rolled resident into supine position. EMTs then place<ff§t6Wfi©6K)0§di6@nt and

r
'Ikw^fited"'Littleton Fire for hospital transfer.
(3) Was the client transported to the hospital? if yes, describe treatment, who provided it and
when it was provided: YES
Resident underwent imaging of cervical spine upon arrival to hospital. Resident also started on Morphine
and Keppra in emergency room. Resident was then transferred to ICU once stabilized.
Resident placed in 20 lb traction to stabilize C1-2 fractures. Resident began to desaturate due to
increased secretions after midnight on 3/3. Bipap and suction utilized briefly before end of life care
commenced. Resident passed away approximately 9 am on 3/3.
(4) What is the client's current status? Resident passed away in the hospital (respiratory failure).
(5) If this was a fall, was there a history of falls? YES
(5a) If yes, had the client been assessed concerning the falls? YES
(5b) Was a care plan in place to address the falls? If yes, please describe the care plan: YES
Resident has had only one(1) fall (occurred 12/2016). Fall occurred outside while resident was walking
with private duty aide. Resident tripped on snow bank. Wind Crest team and family have been more
mindful of outdoor walks since to ensure conditions are safe. Current care plan calls for frequent safety
checks, re-assurance, and re-direction throughout the day, evening, and night. Team provides assistance
with toileting, bathing, grooming and dressing.
(5c) If a care plan was in place, was it being followed? If no, please explain: YES

(6) If this was a choking incident was there a history of swallowing problems? Not a choking
incident
(7) Were facility policies and procedures followed? If no, please explain: YES

(8) What interventions were put into place to prevent a recurrence? Please describe: Resident not
returning to community, however, Wind Crest team was prepared to increase frequency of safety checks,
and prepare other activity options, sports-specific, to support resident engagement (especially in the
evenings).
Notifications
-(3) Who was notified? Please check all that apply:
Physician
Family/Guardian
Next

Back
-'ll—-

ERICKSON000157

AOL Mail - Message View

https://mail,aol.coirv'webmail-s!cl/en-us/h;isic

FW: Inappropriate/Unprofessional Incident at Work
From: Hazel Stuart *Hazel.Stuart@erickson.com>
To: d_stuar159 <d_sluart5S@aol.com> x,
,yy/
Date:
SS8St=385S& ftp ft ( ok5 ^

.

/) i ,'-i
^ < (

From: Hazel Stuart
Sent: Saturday, April 29, 2017 5:55 AM
To: Nicole Gates
Cc: Dona Rubbo; Hazel Stuart
__
. , /
Subject: Inappropriate/Unprofessional Incident at Work/j'T~

/

rr,r„,rri::x,==

we had

,y,

. * .

9
r~

I
I
Haze} Stuart
To:
Cc:
Subject:

..

Sara Stover
Renae Staley
CNA Unprofessional Tone

:.
t:

Around 8pm, I went In to give Mary T. her meds, I Informed the Son-In-Law of my return to. put the cream u ider her
breasts,
WherH returned to apply the cream, he stated'Kacey already put the crdam oh her” and he didn't Know what kind of
llltt0™ *° aS" '<WV (CNA) Wh3t kW °'

'

!hs >“*She stated ,n , loud tone, „ L m

resIdenThl^ h6r °f the doctor's order for the cream, she stated loudly, "
you QMAPS need to let the CNA's <now when a
A rash and use special cream". As I trled to Inform her that the
nurse will be the one to inform her of a doctor's order,
she continue speaking in a loud
ro°m'Sha «— *■ ointment of, fA,oe Vesta Protective

, Rssrastssztatn? r,

the on-cai1 1 * • 4 ~ . - -

and read her note. She falsely stated she was-veiled'at whpn
the Commun,cation Blnderto document
back and 1 Informed her of this, along with send her ani Sara an email deeming'S'6 V“""18' Re"ee retUrnetl

H. Denise Stuart

I

i

i

!
I

1

ERICKSQNC 00099

-

Add more Living to yourLife,u

Witness Statement
Rfskonnect Event #
Date of Accident:

Time of Accident

Name:

9

Z)

■anfSbO

:. L jU AM/PM

Phone: 12-D " "7~71-

Accident Location:

4l.9fi^irle

State, In your own words, how the accident occurred:

— X (inS ^vHiVvi Qh-t-yy,

Qnn hPArri \ii h°.i rirvi nJn

uu

Z£c

KffrLMvj ^ Mri nux u
8>

<V

U

",v,° Milria at—•

I
I

I af |rm the Information supplied in this statement is truthful

and accurate to the best of my ability,

S 2317
Signature

Date

10 ■ 11 am fSj
Time

ERICKSON000062

